OIG Investigative Reports, Louisiana 02/25/2010 Charter School Employee Pleads Guilty to Theft of Over $600,000 from School.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
U.S. Attorney's
Office
Eastern District of
Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
Press Releases
CHARTER SCHOOL EMPLOYEE PLEADS GUILTY TO THEFT OF OVER $600,000 FROM SCHOOL
February 25, 2010
FOR IMMEDIATE RELEASE
KELLY A. THOMPSON, age 39, a resident of New Orleans, Louisiana, pled guilty in federal court today before United States District Judge Carl J. Barbier to theft of federal funds, announced United States Attorney Jim Letten.
According to the documents filed today in court, THOMPSON was employed at Langston Hughes Academy Charter School as the Business and Human Resources Manager/Financial Manager beginning approximately July 1, 2008 until approximately November 6, 2009. THOMPSON admitted that in her position at Langston Hughes Academy Charter School, she would make cash withdrawals while acting in her capacity as Business and Human Resources Manager/Financial Manager and then manipulated the school’s record in order to conceal the thefts. The amount of loss to Langston Hughes Academy Charter School is approximately $660,000.
THOMPSON faces a maximum term of imprisonment of ten (10) years, a fine of $250,000 and up to three (3) years of supervised release following any term of imprisonment. Sentencing is set for May 20, 2010.
This case was investigated by the Federal Bureau of Investigation. The prosecution is being handled by Assistant United States Attorney James R. Mann.
Download Factual Basis
Top
Printable view
Last Modified: 02/26/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov